<html>
<title> - PRUDENT PLANNING OR WASTEFUL BINGE? A LOOK AT THE END OF THE YEAR SPENDING</title>
<body><pre>[Senate Hearing 114-127]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-127
 
   PRUDENT PLANNING OR WASTEFUL BINGE? A LOOK AT THE END OF THE YEAR 
                                SPENDING

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON FEDERAL SPENDING
                   OVERSIGHT AND EMERGENCY MANAGEMENT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2015

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
                        
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





                           U.S. GOVERNMENT PUBLISHING OFFICE
   97-666 PDF                        WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
  
  
                        
                
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


  SUBCOMMITTEE ON FEDERAL SPENDING OVERSIGHT AND EMERGENCY MANAGEMENT

                     RAND PAUL, Kentucky, Chairman
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska
                     Brandon Booker, Staff Director
               Dahlia Melendrez, Minority Staff Director
                      Rachel Nitsche, Chief Clerk
                      
                      
                      
                      
                      
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Paul.................................................     1
    Senator Baldwin..............................................     2
    Senator Lankford.............................................    10
    Senator Ernst................................................    17

                               WITNESSES
                     Wednesday, September 30, 2015

Jason J. Fichtner, Ph.D., Senior Research Fellow, The Mercatus 
  Center at George Mason University..............................     5
Dean W. Sinclair, Changing the Culture of Washington.............     7
Philip G. Joyce, Ph.D., Professor of Public Policy and Senior 
  Associate Dean, University of Maryland School of Public Policy.     9

                     Alphabetical List of Witnesses

Fichtner, Jason J., Ph.D.:
    Testimony....................................................     5
    Prepared statement...........................................    23
Joyce, Philip G., Ph.D.:
    Testimony....................................................     9
    Prepared statement...........................................    62
Sinclair, Dean W.:
    Testimony....................................................     7
    Prepared statement...........................................    60


   PRUDENT PLANNING OR WASTEFUL BINGE? A LOOK AT THE END OF THE YEAR 
                                SPENDING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2015

                                 U.S. Senate,      
                        Subcommittee on Federal Spending,  
                    Oversight and Emergency Management,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rand Paul, 
Chairman of the Subcommittee, presiding.
    Present: Senators Paul, Lankford, Ernst, and Baldwin.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. I call this hearing to order. Today we are 
going to be discussing wasteful spending. I think it is 
particularly appropriate since we have just gone through an 
escapade or a situation where we have basically continued to do 
more of the same without any changes, a continuing resolution 
(CR). And I think what we have failed to do through doing that 
is we have failed to look at particular problems like this one.
    The problem we are going to look at today will not balance 
the budget, but it would certainly be something that we ought 
to start somewhere with trying to cut out wasteful spending.
    So we are going to look today at the end-of-the-year 
government spending binge and how spending goes up at the end 
of the year. Today is the last day of the fiscal year (FY), and 
I think this should be of some concern.
    All last week, and even all month, Federal agencies have 
been ramping up their spending. Many studies have shown this. 
One of the witnesses, Dr. Fichtner, has shown September 
spending will be nearly double that of August. Another study 
shows spending jumps nearly 500 percent over average in this 
last week. And in a clear effort to spend as much as possible, 
today's spending will move west in order to gain a few more 
hours in fiscal bingeing. West coast spending will be 70 
percent higher today compared to spending in the east.
    Today we are going to hear some examples of wasteful end-
of-year purchases, and I will start with one that we have in 
our little Committee here. When I took over this Subcommittee 
and we moved into the new office, we found printer cartridges 
stacked almost to the ceiling for a printer that was years out 
of date. So we asked: ``Why would someone with the knowledge of 
this buy all of this stuff? And why would it be still sitting 
around?'' We found out that a previous Chairman, several 
Chairmen back bought the toner as part of an end-of-the-year 
spending binge, and that Senator has now been gone for years, 
but the toner still remains.
    This practice will not continue under my chairmanship. This 
year I am again going to turn back in nearly half a million 
dollars from my own personal office budget. We are going to 
turn back money here in this Subcommittee as well. More than 
just talking about problems, we want to find solutions.
    I have a possible solution or a way to help to end some of 
the wasteful spending, and this is called ``Bonuses for Cost-
Cutters Act.'' What it would do is reward Federal employees for 
identifying excess funds and to actually turn those funds back 
into the Treasury.
    As you can imagine, appropriators from both parties are 
opposed to my bill, but we think it would be another way to go 
forward with trying to actually reduce some spending by giving 
people bonuses. If you are in the private marketplace and you 
can save money for your employer, you often get a bonus. Why 
don't we give people, instead of having the perverse incentive 
to spend it all at the end of the year, why don't we actually 
give you a bonus if you will turn it back in?
    We have had a great deal of discussion on the floor about 
controlling the power of the purse and how having a continuing 
resolution does nothing to really exert our power of the purse. 
There are too many, though, I think, who often do not care what 
we buy or how much we spend of their money.
    So another idea I have other than giving Federal employees 
bonuses is why don't we give contractors bonuses as well for 
coming under budget instead of having programs where we simply 
add cost plus whatever it takes to get a project finished. I 
think really it is important, if Congress is to assert its 
authority of the power of the purse, that we look in every nook 
and cranny of the budget and look for ways to save money. To 
me, even when I was not in office, we often heard at every 
level of use it or lose it, get rid of it, spend it, or you 
will not get it next year. And I think this still happens in 
government, and it has happened for a long time. And I for one 
hope that this Committee hearing will go a ways toward trying 
to stop this.
    With that, I would like to recognize the Ranking Member, 
Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman.
    Good afternoon. I want to welcome everyone here today. We 
are here today to discuss end-of-the-year spending at agencies 
throughout the Federal Government. I want to thank our 
witnesses who are here today, which we all know is the last day 
of the Federal fiscal year. I look forward to your testimony 
that I think will help put these spending patterns that will be 
talked about into some perspective.
    The title of today's hearing is, ``Prudent Planning or 
Wasteful Binge?'' It suggests that this is the day that Federal 
agencies work through to spend what is left in their budgets, 
either as the result of managing funds to sustain unexpected 
costs or by any means necessary before the funds expire. And I 
imagine that if we were to check in with budget directors at 
Federal agencies this afternoon, they would have something else 
on their minds, and that is, whether the Federal Government 
will be open tomorrow.
    No doubt that they are examining resources and preparing 
their operations for any number of scenarios, including a 
shutdown, no matter how close leaders in the House and Senate 
say they are to passing and reaching a final deal. I know we 
did our work in the Senate earlier today, but it is not done 
yet. That is because the end of the fiscal year--presents a 
deadline for Congress as well. Political games have resulted in 
another manufactured crisis that is driving us to the brink of 
yet another government shutdown. These are problems that we 
have seen before.
    Hardworking families in my State of Wisconsin and across 
the country expect and deserve better from the Congress of the 
United States. The people we represent get up every day and do 
their job, and it should not be too much to expect that we do 
ours by keeping the government open for business and working 
together to get things done for the American people.
    This afternoon we will examine if spending at the end of 
the fiscal year is, in fact, a source of waste in the Federal 
Government. But I think we already know that planning for a 
possible shutdown and operating on continuing resolutions are 
most definitely a source of waste. Even after a CR is passed, 
agency budget officers must spend time planning for the short 
term. Drifting from one budget crisis to the next makes our 
government less efficient and more expensive for taxpayers.
    The 2013 government shutdown not only wasted resources and, 
frankly, weeks of productivity, it cost $24 billion in lost 
economic output. Our full Committee described the failure to 
pass appropriations bills on time as part of ``crisis 
budgeting'' when in 2013 it looked at the costs and impacts of 
operating through continuing resolutions, the threat of 
shutdown, and across-the-board budget cuts to Federal programs 
through sequestration. Two years later, not much has changed.
    And so how do Federal agencies deal with the uncertainties 
of crisis budgeting? In areas where they have discretion to 
delay spending money, they do. And that is no different than 
anyone balancing their household budget would do.
    With all of this uncertainty, it is a reasonable response 
for budget directors to wait until later in the year when it is 
clear how much funding is available for staff training or staff 
generally, let us say. Agencies issue shorter grants and 
contracts with increased overhead costs and delay contracts 
until later in the fiscal year because it takes time for 
contracting officers to do their work. Squeezing contracts, 
grants, and purchases into the last few months of the fiscal 
year can certainly lead to inefficiency.
    When the Government Accountability Office (GAO) surveyed 
agencies about the impact budget uncertainties have on their 
operations, the Bureau of Prisons Field Acquisition Office 
admitted that when a CR is in place, trying to complete their 
contracts of more than $100,000 each by the end of the fiscal 
year negatively affects the quality of competition.
    Resolving crisis budgeting may not reduce pressure to ``use 
it or lose it,'' as it is called, but it would certainly 
restore some certainty, some predictability. To only refer to 
money obligated in August or September as ``a spending rush'' 
or ``wasteful binge'' assumes that at the end of the fiscal 
year a Federal agency would do just about anything to pad their 
budget. But as we all know, the need for staff training and 
technology are inexhaustible, and in our current budget 
environment, there are simply fewer resources for low-priority 
purchases. GAO found this to be true for most discretionary 
programs in their 1998 report on year-end spending and would 
likely find the same, I would say, in 2015.
    In my home State, we have a work ethic that is really 
second to none, and we pinch our pennies. And our people expect 
the same with their taxpayer dollars that we invest in their 
future. So when we find egregious instances of wasted taxpayer 
dollars, it is our job to act no matter at what point in the 
fiscal year that money is spent. The fact is that far too many 
Wisconsin families and individuals, despite their hard work, do 
not have extra money left in their own budgets at the end of 
the month or the end of the year. Stories about government 
spending their tax dollars on a truckload of flower pots or 
other such examples to avoid budget cuts are simply 
indefensible.
    I expect that we will have time this afternoon, Mr. 
Chairman, to talk not only about what happens at the end of a 
fiscal year, but also continue the dialogue that the Chairman 
and I have begun earlier this year about finding solutions to 
the problems of wasteful government spending. And I want to 
thank Chairman Paul for once again providing us an opportunity 
to root out wasteful spending. I look forward to our 
conversation about the incentives built into our budget process 
and the extent to which they lead to decisions that waste 
taxpayer dollars.
    Senator Paul. Well, thank you, Senator Baldwin.
    I think that it is important to note that there is some 
agreement. I think continuing resolutions are a terrible way to 
run government. But I think it is also important to point out 
that this has been going on for a decade under Republicans and 
Democrats. It is both parties that have been a huge failure, 
and it is part of the reason why there is about an 11-percent 
approval rating for Congress because we do not do our job.
    End-of-the-year spending will not balance the budget if we 
were to fix it. It is a phenomenon, and we should fix it. But 
we do not fix anything around here with a continuing 
resolution. Nothing gets better. We never examine bad spending 
or good spending, and nothing gets better. So I am very 
frustrated with the process of the continuing resolution and 
will continue to fight against that.
    At this point, I would like to introduce our first witness, 
Dr. Jason Fichtner, who is a senior research fellow at Mercatus 
Center at George Mason University. His research focuses on 
Social Security, Federal tax policy, Federal budget policy, 
retirement security, and policy proposals to increase savings 
and investment. Previously he served in several positions at 
the Social Security Administration, including as Acting Deputy 
Commissioner of Social Security. Most relevant today, he is the 
lead author of a paper published just last year entitled, 
``Curbing the Surge in Year-End Federal Government Spending: 
Reforming `Use It or Lose It' Rules.'' The Committee would like 
to at this point welcome Dr. Jason Fichtner.

   TESTIMONY OF JASON J. FICHTNER, PH.D.,\1\ SENIOR RESEARCH 
     FELLOW, THE MERCATUS CENTER AT GEORGE MASON UNIVERSITY

    Dr. Fichtner. Thank you, Senator. Good afternoon, Chairman 
Paul, Ranking Member Baldwin, Senator Lankford. Thank you for 
inviting me to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Fichtner appears in the Appendix 
on page 23.
---------------------------------------------------------------------------
    My testimony focuses on two issues: first, the extent to 
which perception of a year-end spending problem is reality; 
and, second, how various reforms would improve the efficiency 
of spending by Federal Government agencies and departments.
    From this discussion, I hope to leave you with the 
following two takeaways:
    First, while anecdotes and media stories of year-end 
spending surges are widespread, empirical evidence for year-end 
spending surges and use-it-or-lose-it spending--or the 
motivation behind the spending--is significantly less 
available. However, my research and recent research by other 
scholars is beginning to demonstrate empirical evidence that a 
year-end spending phenomenon is real and potentially wasteful.
    Second, allowing Federal agencies limited rollover or 
carryover authority could reduce wasteful year-end spending 
splurges. Similar reforms at the State level and 
internationally have shown promise, but more research is still 
needed.
    The use-it-or-lose-it phenomenon refers to the propensity 
of U.S. Government agencies to spend unused financial resources 
toward the end of the fiscal year. This spending is usually 
driven by fear that leftover resources will be returned to the 
Department of the Treasury and will prompt future congressional 
budget cuts for the agency.
    Economists Jeffrey Liebman and Neale Mahoney analyzed data 
from the Federal Procurement Data System and the White House's 
IT Dashboard to show that not only is there a surge in Federal 
spending at the end of the year, but also the spending is of 
lower quality. According to Liebman and Mahoney, at the end of 
the fiscal year, ``the prospect of expiring funds'' causes 
agencies to spend all their remaining resources, ``even if the 
marginal value is below the social costs of those funds.'' The 
International Monetary Fund found that year-end spending surges 
are a ``commonly observed phenomenon in government 
administrations.'' Such surges have occurred in Canada, Taiwan, 
and the United Kingdom, just to name a few.
    My research analyzed publicly available data from 
USASpending.gov related to spending on prime contracts awarded 
by executive departments. My analysis focused on this type of 
spending--which comprised roughly 12 percent of total 2013 
Federal spending--because the data are readily available 
throughout the USASpending data archive.
    My research shows that a remarkably large percentage of 
Executive Branch contract spending occurred near the end of the 
fiscal year. If an agency were to spread its contract authority 
evenly over a 12-month period, roughly 8.3 percent of spending 
would occur in each month. However, in the last month of fiscal 
year 2013, the Department of State spent 38.8 percent of its 
contract expenditures, and the Department of Health and Human 
Services (HHS) spent 28.7 percent.
    Now, not all agencies exhibited a year-end spending surge. 
For example, the Department of Energy (DOE) spent only 6 
percent of its annual contract expenditures in September. But 
as the data show, most Federal agencies were well above 8 
percent, and many were above 16 percent. Between 2003 and 2013, 
of the data I looked at, across all executive departments, 16.9 
percent of obligated contract expenditures occurred during the 
month of September. That is more than twice what we would 
expect if spending were split evenly over 12 months at 8.3 
percent per month.
    It is important to point out that the pattern of fiscal 
year-end spending surges is evident across all fiscal years 
analyzed and it is not unique to the current administration or 
the past few Congresses, as Senator Paul referred to. Year-end 
spending surges have become the norm, regardless of 
administration, party control of Congress, or delays in 
finalizing agency appropriations.
    Academic research and some anecdotal evidence suggests that 
the current budget rule of use it or lose it is not optimal and 
may be encouraging wasteful spending of taxpayer dollars. The 
question remains: If such spending is indeed wasteful, what can 
be done to reduce it?
    One idea is to allow agencies limited rollover authority--
also known as carryover--for funds not spent by the end of the 
fiscal year. The Federal Government could begin with a pilot 
exercise to test the merits of limited rollover authority. 
Within certain Federal departments, agency subcomponents could 
be given the authority to roll over up to 5 percent of the 
contract budget authority into the next fiscal year.
    To avoid lengthy delays in the spending of rollover funds 
and to discourage large accumulation of such rollover funds, 
such funds should be spent within 2 years. Department or 
agencies that wish to participate in the pilot could submit a 
request to Congress, which could then direct the Government 
Accountability Office to oversee, audit, and evaluate the 
program.
    Executive departments should be required to submit midyear 
budget reviews to Congress and the GAO. These reviews would 
detail, by agency subcomponent, the anticipated expenditures 
for the remainder of the fiscal year, the anticipated surpluses 
at the end of the fiscal year, and the reasons for these 
surpluses. Midyear reports with similar components have yielded 
success in reducing use-it-or-lose-it pressures and year-end 
spending surges when tried at home in Oklahoma and overseas in 
Taiwan. A pilot program that gives limited rollover authority 
to several departments, combined with congressional and GAO 
oversight of rollover accounts, would be a useful experiment to 
see whether these changes to the Federal budget process would 
reduce wasteful year-end spending.
    Thank you for your time and this opportunity to testify 
today. I look forward to your questions.
    Senator Paul. Thank you, Dr. Fichtner.
    Our next witness is Dean Sinclair of Changing the Culture 
in Washington. Mr. Sinclair was a long-time Federal employee 
overseeing multi-million-dollar contracts. This was 
particularly the case when he was the Executive Director of the 
Iraq Scientists Engagement Program for the Department of State 
in Baghdad. Mr. Sinclair is keenly aware of the use-it-or-lose-
it phenomenon and is deeply troubled by it.
    I am looking forward to hearing more about your experiences 
and getting your insights. Mr. Sinclair.

   TESTIMONY OF DEAN W. SINCLAIR,\1\ CHANGING THE CULTURE OF 
                           WASHINGTON

    Mr. Sinclair. Thank you, Chairman Paul, Senator Baldwin, 
and the Subcommittee. Thank you for letting me join you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sinclair appears in the Appendix 
on page 60.
---------------------------------------------------------------------------
    I have a lifetime of experience working both sides of the 
fence as a contractor and as a direct hire for the U.S. 
Government, both in the military, in the army, and in the 
Department of State. I will start with the story that you 
referred to, Senator Baldwin.
    There was an ambassador in Africa who asked his facility 
manager to order four flower pots, and thinking about it, he 
came back to that facility manager and said, ``Hey, it is the 
end of the year. I have a big budget there. Why don't you buy a 
truckload of flower pots for us?'' And the facility manager, 
who I spoke to personally firsthand, hated himself for having 
to do that. He was disgusted with the whole process, but, of 
course, he did it because he was asked.
    So he got the flower pots in Africa. Who knows where they 
came from? When they showed up, they took four of them out, put 
them around the embassy where they were needed, and the rest 
were put behind a building and left just to rot in the sun, 
because you cannot let them go, you cannot give them away 
because of the rules, you cannot sell them. You had to keep 
them.
    Now, you have to wonder. That was an ambassador. I am sure 
he or she sometimes risked his or her life in the course of 
their duty, like I was doing in Iraq for 9 years, just to do 
our job. It was often a very insecure thing. We are doing 
things that are for the benefit of America. Oftentimes it has 
direct impact on our national security. These are not disloyal 
people. These are not people who are out to just do evil things 
to America. If that is the case, then what is happening? What 
causes a person to make such an egregious decision about 
wasting money at the end of the year?
    My thought, after all these years, is that they do not have 
any incentive to do it. At the end of the year--and let me give 
it to you clearly. There are three steps that I think need to 
take place on this end of it. For the employees themselves to 
voluntarily come forward and not waste the money but spend it 
effectively and efficiently, three things need to happen.
    One, at the end of every year, they are evaluated. They get 
an employee evaluation form. You will not find on that form a 
good statement that says, ``Have you spent your money that has 
been budgeted?'' And if you did and completed your program, 
well, that is one of the best check marks you can get.
    However, if you happen to complete your mission and return 
surplus money to the Treasury, well, that should be the highest 
check mark an employee gets on their annual evaluation. Notice 
you do not have to build a bureaucracy. You do not have to come 
up with a new program. You just need to put it in there, and it 
is not--if you check--and I have--it is not in there in a way 
that effectively evaluates employees that way.
    Another one, with no bureaucracy, no extra programs 
attached to it, simple public recognition is one of the most 
effective motivating tools for employees, and if at the end of 
the year they turn money back and that is surplus money, they 
should get, like I did, I got two plaques for having an 
outstanding program in Iraq from an Under Secretary and from 
the Ambassador himself. You better believe I worked hard for 
those. And at the end of the year, if people have turned money 
back in, why not just give them the plaque, ``Hey, that is what 
we wanted,'' do it in front of the whole organization, and put 
it in their personnel record, and probably in the local news 
source for that agency. I was written up in the agency--it was 
the U.S. Army Corps of Engineers (USACE) magazine. It was the 
proudest moment of my life just to see that news article.
    So the third one, Senator Paul, is exactly what you said. I 
know you did it in a bipartisan effort with Senator Mark 
Warner, and that is, why not give people a bonus of some sort? 
And I am not saying a large one, but I personally turned back 
$1 million when I was running an $8.5 million program. And when 
I did that, the people I was working for, they looked at me 
like a deer in the headlights, ``I have never seen this 
before.'' What if they had just given me a little bonus for 
doing the right thing?
    Those are the three things that you need to do to get the 
people on board to support not wasting money at the end of the 
year.
    Senator Baldwin. I would like to take the opportunity to 
introduce Dr. Philip Joyce and add my personal thanks to you, 
Dr. Joyce, for being here today.
    Dr. Joyce is associate dean and professor of public policy 
at the University of Maryland and has spent more than 30 years 
practicing and studying budgets at the Congressional Budget 
Office (CBO), the Illinois Bureau of the Budget, and the 
Illinois Department of Corrections. He is the author of a 
report detailing the costs of budgeting uncertainty based on 
his research and interviews with current and former government 
officials. That report describes the effects of late 
appropriations on Federal agency operations over the last 35 
years and explains how Federal budget officers have attempted 
to address greater levels of uncertainty every year. That 
report is relevant today as Congress votes to keep the 
government open.
    Dr. Joyce testified before our full Committee in 2013 and 
talked about year-end spending in the context of budget 
uncertainty, and I am delighted to welcome you to the panel 
here today to provide us with your insight. Thank you, and we 
await your testimony.

  TESTIMONY OF PHILIP G. JOYCE, PH.D.,\1\ PROFESSOR OF PUBLIC 
POLICY AND SENIOR ASSOCIATE DEAN, UNIVERSITY OF MARYLAND SCHOOL 
                        OF PUBLIC POLICY

    Dr. Joyce. Thank you very much. Thank you, Chairman Paul, 
Senator Baldwin, Senator Lankford, Members of the Subcommittee. 
I am very happy to be here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Joyce appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    My message to you today is a relatively simple one; that 
is, I think end-of-year spending is real, I think it is 
potentially a problem to the extent that funds are wasted. I do 
not think in the overall scheme of things it is perhaps the 
highest priority problem that we have. But if end-of-year 
spending is real, I do want to point to something else that is 
real as well, and that is the uncertainty that is created by 
the dysfunction of the appropriations process.
    I think end-of-year spending to some extent is a 
predictable and understandable response by Federal agencies to 
the incentives that they face, and that creating more certainty 
in the process would actually do far more to curb waste and 
inefficiency in government than trying to rein in end-of-year 
spending.
    But first I want to acknowledge that spending, particularly 
for contracts and other types of non-salary items, is 
backloaded, at least in relative terms. And this, by the way, 
is not peculiar to the Federal Government, as has been 
suggested. There are lots and lots of governments where this is 
an issue. I started my career as a budget analyst in the 
Illinois State budget office. The fiscal year started on July 
1. June was a very busy month. So this is not something that is 
peculiar to the Federal Government.
    A lot of this at the Federal level has to do with the laws 
that govern Federal spending. Agencies cannot overspend their 
appropriations because of the Anti-Deficiency Act. On the other 
hand, they are supposed to spend the funds that have been 
appropriated because of the anti-impoundment statutes. So it is 
quite prudent for agencies to set aside funds until they know 
that they have the money. To that extent, end-of-year spending 
could be a prudent response to the incentives that they face.
    But that is not to suggest that agencies do not sometimes 
spend money just to avoid losing the funds and that they also 
do not sometimes spend money in order to protect their 
budgetary base for a future fiscal year.
    So it is not an excuse for wasting funds on unneeded 
expenditures, not only at the end of the year but any other 
time. But if one is to get a handle, I think on the real 
problem, I think it is important to be clear about the 
distinction between end of year and wasteful, because the two 
are not synonymous. The key question here has to do with the 
quality of spending, not necessarily the timing of spending. 
And if one looks at the GAO high-risk list, for example, there 
are a whole lot of examples of fiscal exposure, larger fiscal 
exposures than end-of-year spending. For example, there is the 
$80 billion annual cost for Medicare and Medicaid improper 
payments, which I would say substantially dwarfs the cost of 
end-of-year spending.
    So in relative terms, I would say we are not talking about 
a lot of money, but to the extent that some spending is wasted 
at the end of the year, it may be useful to curb the practice. 
Among other things, it actually does a lot of damage to the 
credibility of the Federal Government when these kinds of 
examples come to light.
    But how? That is where I think budget uncertainty comes in. 
Two years ago, as Senator Baldwin said, I testified at a 
hearing held by the full Committee designed to highlight the 
harmful effects of budget uncertainty. We know what happened 
this year, but this year is not unusual. There have only been 
four times in the last 40 years that the appropriations process 
was completed on time. And it is a good thing to avoid 
government shutdowns, but government by CR is no prize either 
in the sense that it creates a lot of uncertainty and that 
uncertainty itself causes waste. Late appropriations push many 
contract renewals to later in the year. That creates a greater 
potential to make mistakes. It increases the cost of contracts, 
either because savings cannot be locked in or because 
contractors sometimes exact a risk premium for dealing with the 
Federal Government because of the uncertainty that they face.
    In addition, agencies waste a great deal of time and, 
therefore, money preparing for potential government shutdowns 
and also interpreting what they are permitted to do and not do 
under a continuing resolution.
    The effects of budget uncertainty, of course, are also felt 
by recipients of Federal funds, such as State and local 
governments and private contractors.
    All this suggests that our normal dysfunctional way of 
doing business creates a lot more waste and compromises the 
effectiveness of government far more than does end-of-year 
spending. And no State or local government could get away with 
this. Chronic funding delays would result in lower bond ratings 
and increased borrowing costs and a lot of political fallout.
    So my purpose here is not to defend waste. Wasteful 
spending, regardless of the magnitude or the timing, should be 
avoided. It is that end-of-year and wasteful are not 
synonymous, and that in the current fiscal environment, end-of-
year spending practices are an entirely understandable--even 
reasonable--response to the dysfunction and unpredictability of 
the appropriations process. I think making that process work 
better would not only reduce end-of-year spending, but would 
also improve the overall effectiveness of government.
    I thank you very much for your attention.
    Senator Paul. Thank you. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you. Thanks, Mr. Chairman. Ranking 
Member, thank you. I appreciate that.
    Dr. Joyce, let me pick up where you just left off there, 
and that is this broken process. As you mentioned, I believe 
you said four times in the last 40 years, appropriations have 
been done on time and in order with the 12 appropriation bills 
at the scheduled moment. That is not just a broken process; 
that is a shattered process, and it has got to be fixed.
    Dr. Joyce. Right.
    Senator Lankford. One of the ideas that is being floated is 
some way to be able to build in an incentive. Congress only 
seems to get stuff done when they have to get it done.
    Dr. Joyce. Right.
    Senator Lankford. And at that point, even at the last 
moment, to build in some sort of process that would create 
certainty in two areas. One is that the appropriations process 
will be done, and the other one is that we do not have 
shutdowns.
    So one idea being floated is that at the end of a fiscal 
year, we would have an automatic short-term CR that would kick 
in for 30 days, but that there would be a cut in the budget for 
the legislative branch, both the House and the Senate, and our 
committees, and the White House Executive Office, just limited 
to those folks that actually do the negotiation, we would have 
a small budget cut. That budget cut would increase the next 
month and the next month to push Congress to actually get its 
work done. That is not damaging other agencies. They are still 
functioning. But it is not trying to create an arbitrary 
deadline but to put it on Congress, there is really no 
difference between October 1 right now and December 11. We have 
just created another deadline. But there is nothing going to 
change between the two. So I am trying to find some sort of 
pressure point to create and do that.
    Have you heard of that kind of idea? I agree CRs are a 
terrible way to do it, but if we trip over into October 1, I do 
not want to have the instability as well. I want us to get to 
the appropriations process. I would be interested in your 
input.
    Dr. Joyce. I think that any kind of incentive that you 
create, if you believe that it would work, would be a good 
thing. I do think that what might end up happening in that case 
is that the real deadline, to the extent there is one, would 
just shift from being October 1 to November 1; that is, the 
point at which somebody believes that something that matters to 
them is actually going to happen is the point at which someone 
will actually get down to doing the job.
    Senator Lankford. Correct.
    Dr. Joyce. And when I interviewed people for this 2013 
study, one of the striking things that I found is a lot of 
people out there in Federal agencies--and this I think accounts 
partially for the movement of contracting toward the end of the 
year--actually do not believe they are going to get an 
appropriation on October 1 and, therefore, they view normal as 
January 1 because they have experienced that.
    Senator Lankford. Right. And so that is the fixable moment 
that we have to find a way to be able to add leverage basically 
to Congress and to the White House that in our negotiations all 
three parties can get together and try to get this done on time 
and try to get us back to that.
    Dr. Joyce. Correct.
    Senator Lankford. So we will continue to explore that 
together in the days ahead.
    Let me ask this group as well, the idea about floating a 
cap of what you can do in contract spending or in total 
spending. As you mentioned before, the 8.3 percent would be the 
normal in the process. If you did a cap saying that you could 
do no more than 12 percent of your budget in the final 2 
months, would that make a difference? Or would that basically 
instead, being September now, you would have this big massive 
spending in July?
    Mr. Fichtner. I think, Senator, you already hit the 
perverse incentive in your question, which is one of the 
things--the problem we have is there is a deadline that forces 
agencies to spend without being able to roll over any sort of 
authority to the next fiscal year. If you moved that one month 
up, my guess is you would see the data show that that one month 
up would then be a spending splurge as well. So the idea is not 
necessarily changing the date, but how do you change the 
incentives with the structure of the budget process to give 
them a different incentive to roll over money and spend it more 
prudently.
    Senator Lankford. Right, because the key really here is 
oversight and to make sure that things are done well, and that 
when there is wasteful spending, rather than just they were 
being careful with budgets and making sure they did not go 
over, that is understandable to be able to leave that. The 
problem is, at the end of it, leftover funds need to be 
returned to the taxpayer and to what is happening in debt 
reduction rather than spent on flower pots.
    Mr. Sinclair. Another thing that happens is when you come 
up with rules like that, then people, they work to the rule. 
And what it does not address is that cultural mindset of 
wasteful spending, that is acceptable. And if you change that, 
then you will not need to worry as much about those caps.
    Senator Lankford. OK. One last question as well about the 
carryover authority. Oklahoma has that in some of our agencies 
and within the State has the ability to be able to do 
carryover. Again, how does that not just incentivize agencies 
to carry over and then spend twice as much, I guess?
    Mr. Fichtner. Again, Senator, the point is changing the 
incentives, and you also mentioned the idea of congressional 
oversight. This cannot be done in a vacuum. So one of the 
things I recommend is a pilot that looks to the States where 
they were successful, and part of that success is having 
midyear reports.
    Senator Lankford. Do you have an agency that you would 
recommend as a pilot on that?
    Mr. Fichtner. Right now I would start with the Department 
of State and also the Department of Health and Human Services, 
sir.
    Senator Lankford. Why? Because they spent 38 percent in the 
final month?
    Mr. Fichtner. That is part of it. They are the two biggest 
outliers, and I think they are also the two biggest examples 
with the anecdotes that show where waste is. So we could 
control waste and also then change the incentives by the same 
time. It could be a double win.
    Senator Lankford. Thank you.
    I yield back. Thank you.
    Senator Paul. Thank you, Senator Lankford. And the only 
thing I would add to that is if you are going to cut someone's 
budget as an incentive, if you actually cut salaries, that 
might be more of an incentive.
    Now I would like to recognize Senator Baldwin.
    Senator Baldwin. Thank you. I know, Mr. Chairman, you 
yielded to Senator Lankford because he has another obligation.
    Senator Paul. Go ahead.
    Senator Baldwin. Well, thank you all for your testimony. I 
very much appreciate it.
    I know we are focusing in on the Federal Government and, in 
particular, the Executive Branch. Dr. Joyce, you said in your 
testimony that year-end spending is not unique to the Executive 
Branch of the Federal Government, nor is it unique to 
government at any level, and perhaps not even to government. 
There may be examples of use-it-or-lose-it within the private 
sector operating on fiscal year calendars.
    I am sure if there was a silver bullet answer to the 
problem, you would have offered it in your testimony, but are 
there examples of budget directors outside of the Federal 
Government finding useful tools that we should be looking at to 
address the waste that can be present in year-end spending?
    Dr. Joyce. Well, I think there are--two things I would say. 
The first is that the premise of your question, which is that 
this is a phenomenon that exists across lots and lots of 
organizations, is absolutely correct. And the reason for that 
is because most organizations have budgets that are time 
limited; that is, most organizations have some point in time 
when the fiscal year ends, and anytime you have that situation, 
you are going to create incentives for those people to try to 
use the money that they have before it disappears, unless there 
is some way to incentivize them to not do that.
    So the only thing that I am aware of is trying to exercise 
more oversight; that is, if you think that end-of-year spending 
is actually a problem and that the spending at the end of the 
year might tend to be for less high priority items, that you 
create some additional checks.
    For example, when I worked in the Illinois Budget office, 
when agencies were trying to spend a lot of money at the end of 
the year, they actually had to get our approval in order to do 
that if it occurred in the last quarter of the year for some 
things where they did not have to get that approval if they had 
spent the money earlier in the year. Just as an example.
    Senator Baldwin. Just out of curiosity, I came from local 
and then State-level government prior to the Congress of the 
United States. Wisconsin had a 2-year budget.
    Dr. Joyce. Right.
    Senator Baldwin. And you talked about the propensity for 
backloading these expenditures just because you get a budget 
and it takes you awhile to begin to implement competitive bids 
for contracts, et cetera. Have you had the opportunity to 
examine others that do a 2-year budget? And I am not 
necessarily a proponent of that, but how does it change 
behavior? Do you see less backloading in different budget 
lengths?
    Dr. Joyce. Dr. Fichtner may have looked at that. I have not 
looked at it. I think logically what one would think would 
occur under a 2-year budget--and I have some reservations for 
other reasons about a 2-year budget, but in terms of----
    Senator Baldwin. As do I.
    Dr. Joyce [continuing]. This specific question, I think 
that the incentives would occur half as often if what happened 
was that you had funds available for 2 years as opposed to 
having funds available for only one year.
    Senator Baldwin. I want to explore further, Dr. Fichtner, 
your comment or your ideas about rollover authority. You talk 
about the Federal agencies being allowed to keep a portion of 
their unobligated funds to reduce the incentives created under 
use it or lose it. What safeguards would you propose be in 
place to ensure that these funds, which would arguably be 
subject to less oversight once they were removed from the 
regular appropriations process, so that these funds do not 
become more susceptible to wasteful spending once rolled over?
    Dr. Fichtner. Senator, that is an excellent question. In 
fact, I would actually give them more scrutiny, not less, in 
the congressional process, including having GAO monitor it. One 
of my concerns--and I think you probably are showing this as 
well--is if you give an incentive to an agency to have rollover 
authority, they may purposely not spend money that Congress has 
authorized and appropriated for the funds intended, just to 
show they can get a bonus or just to show they have saved money 
and roll it over.
    So what I would do is have a pilot in which they apply to 
Congress so that Congress can have a chance to have witnesses, 
ask them: Why do you think your program is best suited for 
rollover authority? How do you plan to do it? Then have midyear 
reports that go to Congress. GAO evaluates it to make sure that 
they are spending it appropriately and not just putting it in 
what is called the ``rathole.'' That is very insightful, and 
that is how I would put some protections on it, Senator.
    Senator Baldwin. Do you have any other comments on that, 
Dr. Joyce?
    Dr. Joyce. Well, on rollover authority, actually going back 
very far into history, when Vice President Gore was Vice 
President, there was a reform called ``Reinventing 
Government,'' and one of the specific recommendations of 
Reinventing Government was that agencies be able to keep 50 
percent of the money that they saved at the end of the fiscal 
year. The trick from an agency perspective is that they have to 
believe that in the executive process the Office of Management 
and Budget (OMB) will not take that money out of their base for 
the next fiscal year. So they have to believe that they will 
actually get to keep and spend it as opposed to it will just 
become a reduction in next year's budget. So everybody has to 
sort of agree to play along in order for the game to work.
    Dr. Fichtner. And the congressional process as well.
    Dr. Joyce. Correct.
    Senator Baldwin. Right. Points that you have both made. 
Thank you.
    Senator Paul. I would like to have this question really for 
the panel. We have put forward a bill that Mr. Sinclair 
mentioned, and it is a bill to basically give incentives. We 
have talked about incentives for your budget or for our general 
budget, but I think people respond best to incentives that 
actually have to do with themselves.
    In our bill basically we put forward--and someone has to 
approve that they have done what they were told to do. 
Basically your agency has a mission, and I believe we have the 
chief financial of course, and an Inspector General (IG), both 
have to certify that you have performed your mission.
    But, see, I think throughout an enormous government that 
spends $3.8 trillion that, the cartridges that are piled up in 
our room back here, that somebody, if they thought they were 
getting a $1,000 bonus by not ordering $10,000 worth of printer 
toners, they probably would not have done it. And this does 
work.
    And as far as end-of-the-year spending, it would only work 
in a corporation or happen in a corporation where there is not 
good oversight and where it is so big and bureaucratic that it 
is somewhat like government. In a well-run business, it would 
never happen because the incentives would exist throughout, and 
you would want to be pleasing your boss to get a promotion to 
save money. You would be telling your boss, ``Hey, I ordered 30 
percent less toners this year, so we saved the company money.'' 
And you would expect something for that.
    But I would like to know, just each of you individually, 
what you think of the idea of giving a personal incentive. I 
personally do not think much of carrying the money over to the 
next year. It might help a little bit not to have the crunch of 
everybody trying to get rid of it. But it really does not give 
anybody the incentive to give it back to the people whose money 
it is, which is the taxpayer.
    Why don't we start with Jason and work our way down?
    Dr. Fichtner. Thank you, Senator. I think that your idea in 
the bill is a very good idea. What I would also do is couple it 
with the rollover spending, because one of the things you want 
to do is make sure incentives align. You give the employees an 
incentive, but the management does not have an incentive to 
rollover authority. Then basically they might look at their 
employee poorly and say, ``Hey, you just gave money back. 
Congress is going to take it away next year, and you have 
ruined my career.'' That is one of the things Mr. Sinclair was 
pointing out. So I would look at this as a tandem idea of 
giving the incentive to the employee to identify fraud and 
wasteful spending with a dollar award, and the manager as well.
    Senator Paul. Well, one thing on that, you could sort of 
share the incentive and make everybody part of a team where the 
guy at the very top or the woman at the very top is also 
getting a piece of the action as well. So I think there could 
be something where the whole agency could even take a little 
small portion of the savings, and the guy or the woman who 
found the big savings gets a bigger percentage chunk, but then 
it is spread throughout the whole agency. People just react to 
stuff that affects them personally.
    Dr. Fichtner. I agree, Senator. The other thing I would 
mention, because I have mentioned this to Mr. Sinclair and we 
have talked about this, is changing the incentives for the 
Senior Executive Service (SES). They have performance reviews 
every year which are based on some qualities and assessments, 
and one of them is business acumen. That category should 
include something that says if fiscal dollars are not spent 
appropriately, are you going over too much or are you on 
budget, not going over or not going under, if you are carrying 
over too much and not spending, or you are spending at the end 
then you cannot get a salary bonus award.
    Senator Paul. Yes, I like that idea, and I think maybe we 
should look at our bill to see about adding that to our bill 
about the way we review employees. I think that would be good 
as well.
    Dr. Fichtner. Thank you, sir.
    Mr. Sinclair. Senator, I looked at your bill, too, and I 
liked what I saw. It had protections in there so that there 
would be review, because there was also the possibility of 
abusing that system, ``Let us pad my budget so I can turn some 
money back and get a bonus at the end of the year.'' That would 
be a hardship----
    Senator Paul. But they do not create their budget. We 
create the budget, right?
    Mr. Sinclair. Well, but they would tell you what they need, 
so, ``Let me expand on what I think I need so that I can get a 
bonus.''
    Senator Paul. I think that already occurs without the 
bonus. [Laughter.]
    Mr. Sinclair. Essentially what I am saying I am agreeing 
with you that since you have protections in there, that is a 
good thing. Money is one of the three motivations that I 
recommended. It is not the top one, though. I think it is an 
excellent one if you do not make it--like, if I have saved $1 
million, how much should I receive for that as a bonus? Well, 
in my mind, $1,000, $2,000? Is that a good bonus for the 
government to save $1 million? That seems fine. That is just a 
suggestion.
    Senator Paul. Right.
    Mr. Sinclair. I would like to point out, though, that we 
pretty much agree here on this panel on everything except 
probably one thing, and that is, the magnitude of the problem. 
It is a serious, hugely important problem. I think it is an 
unseen problem, and the reason I say that is because people who 
have this mindset that they have to get rid of that money 
throughout the year are making bad decisions about that money. 
And some of those decisions have to do with things like our 
national security, and notice the recommendations that I have 
said. I am not talking about eliminating agencies or anything. 
I want every agency to work well.
    Senator Paul. I think one other point I would make is that 
even if it is not 50 percent of the budget or 50 percent of the 
problem----
    Mr. Sinclair. Correct.
    Senator Paul [continuing]. If it is one percent, if you 
take one percent savings across the board and you compound it, 
it adds up to real savings. I mean, you actually can balance 
your Federal budget, as bad as it is now, with one percent real 
compounded savings over a 5-year period.
    I would like to have Dr. Joyce comment, and then I will be 
done.
    Dr. Joyce. The only comment I could add is that you do not 
provide Federal agencies and programs with money as an end in 
and of itself. You provide agencies and programs with money 
because there are particular missions and jobs that you want 
them to do. So the only thing that I would add in is that you 
would have to make sure that the saving of money was not an end 
in and of itself, but that you also factored in what did you 
accomplish with the money that I provided you; and if you can 
accomplish what you are supposed to accomplish and 
simultaneously save money, then I think you are really on to 
something.
    Senator Paul. Right. I would appreciate it if all of you 
would look at our bill. We do have that in there, a safeguard 
to try to make sure you are accomplishing your mission. But if 
you will all look at the bill--it is a very short bill--I am 
open to suggestions, and from Senator Baldwin as well. We need 
more Democrats on this. We have one Democrat right now, so we 
need more. I do not think we are going to get any 
appropriators. They just do not care, I mean, and that is just 
sad to say. But I would appreciate any kind of influence from 
you that says that we could change the bill in one way, and we 
will look at that. And we would also look at it from Senator 
Baldwin--if you would come on board, we are willing to take 
suggestions. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. I appreciate it.
    Gentlemen, thank you for being here today. And, Dr. Joyce, 
I will echo what you said about all levels of government. I 
started my elected career as a county auditor, and, of course, 
we saw some of these same issues at a much smaller scale at the 
county level.
    One of the things--of course, we had the contract spending 
at the end of the year, but one of the things that we 
implemented to try and control that end-of-year spending, 
something that we can think about at the Federal level, have 
discussions on. But when the budget was set for the fiscal 
year, at the beginning of the year--of course, ours was a July 
1 fiscal year as well. At the beginning of that fiscal year, 
our county supervisors would only authorize a certain percent 
of the budget, and when you hit that mark, then that department 
would come back in and then justify the rest of their spending 
going forward. That might be cumbersome, but it did slow down 
that end-of-year and unwarranted expenditure. So that was 
something that we utilized, and it did help.
    I do want to go back to some of your testimony, Dr. 
Fichtner. You provided some graphs and charts in your 
testimony--thank you for doing that--on the agency contract 
expenditures, and this is a big issue. The State Department, I 
cannot believe it, at the end of every year, and HHS, well 
above the average with other contract spending authority 
compared to other agencies. And so what is the State Department 
spending 38 percent of its entire contract budget on in that 
last month of the fiscal year? Can you explain to us what that 
is?
    Dr. Fichtner. Senator, I wish I could in detail. There are 
anecdotes about them wasting money on $1 million grant statues, 
$5 million----
    Senator Ernst. Lovely.
    Dr. Fichtner [continuing]. For stemware for the embassies. 
This report was a year ago. It was based on fiscal year 2013 
data. Because I was testifying today, just over the weekend I 
played around with USASpending.gov just to look at the State 
Department, because someone asked, ``Well, how much is done 
last year in the entire fiscal year? How much is done today?'' 
I thought, well, that is an interesting question. So I pulled 
up just the State Department fiscal year 2014 contract data, 
and of the entire year, there are roughly 19,500 contracts that 
they manage and sign. At the end of the fiscal year, just on 
the last day of the fiscal year, there were 2,000 contracts 
signed. Now, that is only 0.2 percent of all contracts. Big 
deal. However, the dollar magnitude was 8.4 percent of the 
entire dollar amount for the fiscal year.
    Senator Ernst. Oh, my gosh.
    Dr. Fichtner. So to get to the point is this a wasteful 
binge or prudent spending, I would argue a little from Column A 
and a lot from Column B. It is a problem. The question is: What 
can we do about it? And that is the issue.
    Senator Ernst. Right. Very good.
    Yes, Dr. Joyce.
    Dr. Joyce. If I could just add, one of the things that I 
found when I was talking to people in Federal agencies about 
this research that I was doing a couple years ago is that 
agencies have responded to the delays in the appropriations 
process by making sure that contracts do not come up for 
renewal during the early part of the fiscal year because they 
do not want contracts to come up for renewal at a point where 
they do not know how much money they are going to have. So I 
have not looked at the data to the extent that Dr. Fichtner 
has, but a lot of this is why I focused on the uncertainty of 
the appropriations process. A lot of what occurs in terms of 
incentives for Federal agencies pushes them to try to renew 
contracts later in the year just because they do not know 
whether they are going to have the money or they do not know 
how much money they are going to have.
    Senator Ernst. Right. Very good. And it is not just the 
State Department. It is not just HHS. I am going to hit one 
other agency that I think has the potential to do so much good 
for so many men and women that have put their hand up and sworn 
to defend and uphold our Constitution and defend our freedoms 
here in the great United States, and that is, the Department of 
Veterans Affairs (VA). It really could do so much more for us, 
and yet what we have seen in recent years is just scandal after 
scandal with the Veterans Administration. And they are going 
through some tough times, I would say right now. They bring 
that on themselves. I am not going to offer any excuses for 
them.
    This is for everybody on the panel. Do you think an agency 
like the VA should be spending $562,000 on art work in one 
week?
    Dr. Fichtner. So, Senator, what I would say is, as you 
pointed out, part of the comment is the Department of Veterans 
Affairs has a lot of problems right now. Some of it also is 
leadership, in which the culture of the agency from the staff 
level is trying to report to Congress with similar activities, 
and they are getting pushback by the managers, executives. I 
think that should be somewhere where Congress could focus on 
how to help those employees stand up and report to Congress on 
the abuse that is happening.
    Senator Ernst. Exactly. Thank you.
    Mr. Sinclair. May I add something else?
    Senator Ernst. Yes, go ahead, Mr. Sinclair.
    Mr. Sinclair. It took time and energy to waste that money. 
A lot of time and energy.
    Senator Ernst. Of course it did.
    Mr. Sinclair. I can give you an example from the Department 
of State. That is who I worked for. The $1 million that I was 
ready to turn back was--they told me in August, ``We need you 
to spend this by the end of September.'' Well, my program had 
been one of the most successful in the embassy, but it took a 
lot of work to get it there. And the reason I said I cannot do 
it right now is because my program will be hurt if I try to 
spend that money. Let us put it in the budget for next year. I 
think we could do something reasonable with it. But that was 
not an acceptable answer.
    Senator Ernst. That is not the right answer in today's age, 
is it? And that is very unfortunate.
    Going back to the art work at the VA, there was a 
Washington Post article from 2 years ago that outlined some of 
the spending that the agencies are doing in those last few 
weeks, and this is just one of those examples. We have some 
great therapeutic programs for our veterans. They do art work. 
Why are we not using that art work in our VAs? Wasteful, 
wasteful spending. We have to do better for our taxpayers. We 
certainly should be doing better for our men and women in 
uniform and those veterans.
    So thank you, Mr. Chairman.
    Senator Paul. Thank you.
    We have mentioned a little bit about giving incentives to 
Federal employees. I think there also could be a similar type 
financial incentive program for contractors, and maybe there is 
and I am not aware of it. But while we are talking about the VA 
and waste--and we could go on and on--the veterans hospital in 
Aurora, Colorado, is going to cost $1.8 billion. It is a 182-
bed hospital. It is nearly $10 million per hospital room. It is 
outrageous. It ought to be wallpapered with gold to have cost 
that much.
    But I am wondering whether or not we could do something 
similar with contractor money, that if you were contracted and 
you were given $1 billion and you were told $50 million of it 
was profit for you and the rest was the cost of building 
something, couldn't we say that if you can do it for $800 
million and you save the government $150 million, that maybe 
you get a percentage of the savings instead of what we do, the 
opposite, we give you just whatever your costs are, we will 
give you cost-plus whatever the profit margin is? But I really 
think that we could work in incentives into the contracting 
process as well.
    If each of you will comment on whether or not you know if 
any of that exists or what you think of the idea?
    Dr. Fichtner. So, Senator, I am not sure it exists in the 
Federal Government. I know in the private sector there are a 
lot of examples. They try to give incentives to contractors, 
and what they do is there are performance bonuses for finishing 
early, not just on time but early, in budget and in quality. 
And so you could do something in the Federal Government that 
basically----
    Senator Paul. You do it on time and you could do it coming 
in under budget.
    Dr. Fichtner. Right.
    Senator Paul. And then you get a percentage of what----
    Dr. Fichtner. So the only thing you want to avoid is a 
perverse incentive for a contractor to then pad the estimate. 
But if you have a very competitive process, that should 
eliminate that.
    Senator Paul. Exactly.
    Anybody else?
    Mr. Sinclair. I just agree with that. I think it would be 
useful. It would only be one tool, though, and I think a bigger 
problem probably is the plus-ups that the client, the Federal 
Government, would give to the contractor over time, and also 
the continuing resolution problem. When you do not know when 
your contract starts, you always have to add money to it. So I 
like your idea, but it is only one element that we need.
    Dr. Joyce. Yes, I want to followup directly on that. I do 
not want to hit the same note over and over again, but I think 
the uncertainty is really a big issue for contractors as well. 
So I think if you are going to try to rein in waste in terms of 
contractors, I think contractors also would benefit from a lot 
more certainty in the budget process.
    I will say that I have not studied this at the Federal 
level, but I was involved in a study of the 50 State 
governments and their management processes a few years ago, and 
there was a wide variation in terms of the States in the extent 
to which they did what Dr. Fichtner was describing, which is 
really performance contracting. So, a performance contract 
basically says we are going to write into the contract up front 
what those incentives are, and we are going to talk about 
quality, and we are going to talk about timeliness, and we are 
going to talk about cost, and we are going to create some 
incentives for you to come in with a high-quality product on 
time and under cost. And unless you do that up front, I do not 
think you can hope that it is just going to happen on its own.
    Senator Paul. Well, thank you, and if you have any ideas, 
like I say, we are open on this, too. I think there is a 
contractor problem, and we have to figure out how to say that 
it is not acceptable to spend $1.8 billion on a 180-bed 
hospital. Thank you. Senator Baldwin.
    Senator Baldwin. The last time that the GAO took a look at 
year-end spending was in 1998, and I have two questions based 
on that last exam. When the GAO looked at it Dr. Fichtner, 
USASpending.gov did not exist, and part of their report 
mentioned inadequate data on the timing of spending in Federal 
agencies. And I believe that the website does much to increase 
transparency, but it has certainly been criticized in some 
quarters that OMB must address underreporting and inconsistency 
in the website.
    So I have a wide-open question for you. What did you think 
of it? What were its limitations, its inconsistencies? How 
could we do better?
    Dr. Fichtner. Well, Senator, thanks for the question 
because as researchers, we are always looking for better data, 
and, again, you have to give credit where credit is due for 
President Obama putting this information out for the public and 
for researchers to use it, because that is what transparency is 
about, is putting this information out.
    Senator Baldwin. Yes.
    Dr. Fichtner. And I know GAO is working heavily with OMB 
and others to improve the data set. I think the data is useful, 
but it does have limitations. One is that there are constant 
updates going on. So if I download data today from last year--
so it is year-old data--and I look at it again one week from 
now, the numbers are different. There might just be very small 
changes, but there are still changes. So there are reporting 
changes going on where agencies say, ``We found some late 
contracts that came through.'' There are a lot of reasons why 
realistically there could be changes, but there still are 
changes. So you always have to question how clean the data is. 
There are refunds that go on as well. So I do my best sometimes 
to go through it, but, again, there are 20,000 contracts a year 
for State, so you try to find the big ones that could affect 
the numbers in large areas.
    So I think just sort of, again, having Congress look at and 
say how do we improve it, how do we make it more clean, getting 
researchers in who have used it and say this is great but how 
do we make it better, I think is a great idea, Senator. I 
appreciate you looking into this as well.
    Senator Baldwin. Thank you.
    And, Dr. Joyce, a different question about that GAO report. 
When they last looked at the issue, it found that procurement 
reforms were helping to safeguard against improper or 
unnecessary contracts that had been associated with a rush to 
spend funds at the end of the fiscal year. It has been quite 
some time since that report, and Congress has made and there 
have been other changes made to the procurement system. So I am 
wondering, has anything in your work demonstrated that further 
changes in law or practice may be necessary, especially in this 
procurement reform arena?
    Dr. Joyce. I have not looked at that, Senator, 
specifically. I mean, I know that OMB has an Office of Federal 
Procurement Policy, and I know some folks over there, and I 
know that this is the kind of thing that they are focused on. 
And I think that, one of the things that that would do, one of 
the things that we should think about, is moving beyond the 
data. I mean, for example, it is one thing to say that the 
State Department spent 38 percent of their money; it is another 
thing to then go into it and say, well, what did they spend the 
money on? And how can we differentiate between what we think is 
wasteful and what we think is not wasteful? I mean, that is not 
a criticism of what Dr. Fichtner did. It is just saying that 
peeling away additional layers of that onion in order to answer 
the why and what did we actually get for that money I think is 
the next step in this process.
    Senator Baldwin. Exactly.
    Mr. Sinclair. I can answer part of that question. Again, 
working for the Department of State, the only way I could have 
spent that $1 million was on equipment, because you can do 
equipment purchases in a day. All right? I did not need 
equipment because I had already gone through almost every 
laboratory around Iraq, and I saw every laboratory full of new 
equipment sitting in the box unopened that had already been 
placed there by either the Department of State or the 
Department of Defense (DOD). They could not use it, and yet we 
were willing to spend more money on equipment.
    So, right, that is an issue that is there, and it needs to 
be corrected.
    Senator Baldwin. Thank you. Thank you to all of you. Great 
hearing.
    Dr. Fichtner. Senator, I would also just add real quickly, 
since you have a little bit of time left, because Dr. Joyce has 
it in his written testimony: The one thing that can really put 
a focus on agency spending is congressional oversight. Having 
this hearing is one example. Call up some of the agencies. Have 
them come, have them tell you why they spent the money, what 
were these contracts for. Have them explain it. That is part of 
the oversight job.
    Senator Paul. And if there were repercussions, your 
appropriations would actually go down, which would mean we 
would have to have an appropriations process. But I want to 
thank Senator Baldwin for being part of this and the panel for 
being part of this today and reiterate that I am open to 
suggestions on any of this. I do not think this is a partisan 
issue. I think that everything that everybody has said has some 
validity to it, and we have at least the one bill, Bonuses for 
Cost-Cutters, that we are open to suggestions to make the bill 
better, and that we do not yet have a bill but we are open to 
suggestions on something to do with contracting. But we want to 
do the same thing. We want some kind of financial--it can 
include other things, but we do want at least part of the bill 
and probably the main focus of the bill to be financial 
incentives for people to come in under budget on things that 
they contract. But thank you for being part of this today.
    The record will remain open until October 14 for the 
Members to submit additional questions or comments, and with 
that, the hearing is adjourned. Thank you.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------      
                              
                              
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              
                              





                                 <all>
</pre></body></html>
